IN THE
SUPREME COURT OF THE UNITED STATES

LOUIS RUGGIERO,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

DECLARATION VERIFYING TIMELY FILING

Petitioner, LOUIS RUGGIERO, through undersigned counsel and pursuant to Sup. Cr. R.
29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari filed in the above-
styled matter was placed in the U.S. mail in a prepaid first class envelope, addressed to the Clerk
of the Supreme Court of the United States, on the 24th day of July, 2020, which is the date that the

petition for writ of certiorari is due.

 

RICHARD C. KLUGH, ESQ.
Counsel for Petitioner
Ingraham Building

25 S.E. 2nd Avenue, Suite 1100
Florida 33131

Tel. No. (305) 536-1191

 
 

Miami, Florida
July 2020
